la
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with
Fed. R. App. P. 32.1
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
Submitted June 28, 20191
Decided July 16,2019
Before
JOEL M. FLAUM, Circuit Judge
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3185
EDWARD A. WEINHAUS
Plaintiff-Appellant
v.
NATALIE B. COHEN, et. al.,
Defendants-Appellees
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 18 C 2471

1 We have agreed to decide the case without oral argument
because the appeal is frivolous and oral argument would not
significantly aid the court. See Fed. R. App. P. 34(a)92)(A).

2a
Rebecca R. Pallmeyer,
Chief Judge.
ORDER
Edward Weinhaus sued his ex-relatives and the
state of Illinois over provisions in a state-court custody
judgment that required Weinhaus to exercise his
parenting time outside Illinois. He contends that this
requirement violates his constitutional right to travel
and that the custody proceedings generally violate his
right to due process. The district court granted the
defendants’ motions to dismiss. Because it rightly
concluded that it lacked subject-matter jurisdiction
under the domestic-relations exception to federal
jurisdiction and the Rooker-Feldman doctrine, we
affirm.
Weinhaus and Natalie Cohen filed for divorce in
2012 in the Circuit Court of Cook County, Illinois. (We
recite the factual allegations and draw all reasonable
inferences in favor of Weinhaus. See Evers v. Astrue,
536 F.3d 651, 656 (7th Cir. 2008).) Later, they agreed to
a joint-custody judgment that addressed the care of
their five children. Under that judgment, Cohen is the
primary residential parent and resides in Illinois with
the children. Weinhaus, a resident of Missouri, may
conduct his parenting time outside Illinois on specified
weekends and school breaks. In 2016, Weinhaus and
One
Cohen agreed to a modified judgment,
modification provided that Weinhaus’s parenting time
on certain weekends and school breaks “shall” be
exercised outside of Illinois. The following year,
Weinhaus moved to modify the judgment to remove the
requirement that he “shall” exercise parenting time
outside of Illinois.

3a
A month before the hearing on his motion to
modify, Weinhaus turned to federal court, invoking 42
U.S.C. §§ 1983 and 1985(3) to sue Cohen, her new
husband, her parents (“the Cohen defendants”), and the
state of Illinois. He contends that, because the custody^
judgment requires that he spend his time with his
children outside of Illinois, and the defendants interpret
the judgment that way, they have violated his right to
travel within Illinois with his children. He argues also
that they have violated his right to due process because
the order was entered without proper procedures,
without considering the best interests of the children,
without recognizing that he was under duress, and after
interfering with his right to self-representation.
The district court granted the defendants’
motions to dismiss under Federal Rule of Civil
Procedure 12(b)(1) and (6). The judge concluded that
both the domestic-relations exception to federal
jurisdiction and the Rooker-Feldman doctrine barred
the court's review of the case. See District of Columbia
Court of Appeals v. Feldman, 460 U.S. 462 (1983);
Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923). (The
judge also ruled that the custody order did not violate
Weinhaus's right to travel and that the state was
immune under the Eleventh Amendment.) Because
there was "no possibility that [Weinhaus's] allegations
can support a good faith claim within this court's
jurisdiction," the judge declined to allow him leave to
amend the complaint. We review Weinhaus's appeal of
the dismissal de novo. See Kowalski v. Boliker, 893 F.3d
987, 994 (7th Cir. 2018).
Weinhaus contends that the domestic-relations
exception to federal jurisdiction does not block this suit,
but the district judge correctly ruled that it does. The
exception precludes federal review of state-court

4a
decisions '"involving the granting of divorce, decrees of
alimony,1 and child custody orders." Kowalski, 893 F.3d
at 995 (quoting Ankenbrandt v. Richards, 504 U.S. 689,
701—02 (1992)). Weinhaus argues that the domesticrelations exception applies only to diversity-jurisdiction
cases, not to federal-question cases, like his. But it
applies in both types of suits. Kowalski, 893 F.3d at 995;
Jones v. Brennan, 465 F.3d 304, 306—07 (7th Cir. 2006).
The reason is that state courts, which "have developed
a proficiency in core probate and domestic-relations
matters," Struck v. Cook Cty. Pub. Guardian, 508 F.3d
858, 860 (7th Cir. 2007), may also decide issues of
federal law, so "confining a class of federal-law cases to
state courts does not deprive litigants of their federal
rights," Jones, 465 F.3d at 307.
To avoid the exception, Weinhaus suggests three
possible end-runs, but they are all unavailing. First, he
relies on Kowalski to contend that the exception does
not apply because he is merely attacking a third party's
"tortious interference" with a family-law case. See 893
F.3d at 995—96. In Kowalski, the plaintiff alleged that
defendants corruptly tried to influence how a judge
decided a divorce suit. Because that claim—undue
influence—was not based on family law, we ruled that
the domestic-relations exception did not apply (though
we decided for other reasons that the plaintiff failed to
state a claim). Id. Weinhaus's claim is different. He
complains that his ex-relatives are using the custody
judgment itself to restrict access to his children in
Illinois, so the claim depends entirely on domesticrelations law. Second, Weinhaus contends that the
exception does not apply because the state court
"lacked jurisdiction" after it deprived him of his
procedural rights and failed to consider the best
interests of the children. But these are arguments for a

5a
direct appeal in state court; they are not grounds for
federal courts to exercise jurisdiction. See id. Third,
Weinhaus observes that he and Cohen are now
divorced and the circuit court has awarded custody, so
no domestic-relations case is pending there. But this
lawsuit is a dispute over child custody, a matter under
the continuing supervision of state courts, so the
domestic-relations exception applies.
Based on Weinhaus's last contention—that the
domestic-relations case is over—the Rooker-Feldman
doctrine also precludes our review. The doctrine
prevents federal district and appellate courts from
deciding cases by litigants complaining of injuries
from state-court judgments rendered before the federal
suit commenced and seeking federal review and
reversal of those judgments. See Exxon Mobil Corp. v.
Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005).
Weinhaus's alleged injury comes from the
provisions in the custody judgment requiring him to
exercise his parenting time outside of Illinois. The state
court entered that judgment and modified it before
Weinhaus sued in federal court for review and relief
from that judgment, so Rooker-Feldman applies.
Weinhaus raises two arguments that the RookerFeldman doctrine is inapplicable, but they are as
meritless as his contentions about the domesticrelations exception. The doctrine does not preclude our
review, he first submits, because the modified
judgment is "void." It is void, he says, because he
agreed to it under duress, the state court failed to
consider the best interests of the children, and the
court lacked authority to require him to raise his
children outside of Illinois. But the doctrine precludes
federal jurisdiction "no matter how erroneous or
unconstitutional the state court judgment may be"

6a
because the Supreme Court of the United States is the
only federal court with jurisdiction to review a statecourt judgment. Remer v. Burlington Area Sell. Dist.,
205 F.3d 99(), 996 (7th Cir. 2000). Second, he argues
that he does not challenge only the state-court
judgment; he also contests the defendants' procedural
tactics in court (such as allegedly preventing him from
having a hearing and criticizing his self-representation)
that led to the adverse custody judgment. But there is
no "procedural exception" to the doctrine—it applies to
"the procedures used by state courts to reach decisions"
where, as here, "[n]o injury occurred until the state
judge ruled against" the federal plaintiff. Harold v.
Steel, 773 F.3d 884, 886 (7th Cir. 2014).
Because the district court lacked jurisdiction, we
do not reach Weinhaus's remaining arguments.
Therefore, we affirm the district court's dismissal,
though the judgment is modified to be for lack of
subject-matter jurisdiction.
A final matter remains: the Cohen defendants
moved for sanctions under Rule 38 of the Federal Rules
of Appellate Procedure, to which Weinhaus has
responded in opposition. Sanctions are indeed
warranted. The suit is plainly blocked by the domesticrelations exception and the Rooker-Feldman doctrine.
To avoid the jurisdictional problem, Weinhaus contends
that the state-court judgment violates his rights to due
process and to travel interstate. But his arguments do
not circumvent the impediments to jurisdiction, and
they ignore our case law and the arguments raised by
the Cohen defendants and the state of Illinois. Thus, the
Cohen defendants' motion is GRANTED, and they may
file, within 14 days of this order, a statement of the
attorneys' fees and other expenses reasonably incurred
in defending this appeal. Weinhaus shall file any

7a
response no later than 21 days after the Cohen
defendants file their statement.
AFFIRMED AS MODIFIED, WITH SANCTIONS

8a
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois
CM/ECF LIVE, Ver 6.2.2
Eastern Division

r

Edward A. Weinhaus
Plaintiff,
v.
Natalie B. Cohen, et al.
Defendant
Case No.: l:18-cv-02471
Honorable Rebecca R. Pallmeyer
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on
Friday, September 14,2018:
MINUTE entry before the Honorable Rebecca
R. Pallmeyer: Ruling held on 9/14/2018. Plaintiffs
allegations do not satisfy the court that the agreed
order entered by the state courts violates his
constitutional right to travel. In any event, the State of
Illinois enjoys Eleventh Amendment immunity. The
domestic relations exception to this court's jurisdiction
is applicable here, and the Rooker—Feldman doctrine
applies to bar federal court review of the state courts'
orders. For these reasons, Natalie B. Cohen's, Steven
Cohen's, Barry Chernawsky's, and Adrienne
Chernawsky's motion to dismiss complaint pursuant to
Rule 12(b)(6) [10], and State of Illinois' Rule 12(b)(1)
motion to dismiss [14] are granted. Because the court
perceives no possibility that Plaintiffs allegations can
support a good faith claim within this court's
jurisdiction, the court declines to allow leave to amend.

9a
Dismissal is with prejudice to the case in this court.
Judgment will enter. Mailed notice, (etv,)
ATTENTION: This notice is being sent
pursuant to Rule 77(d) of the Federal Rules of Civil
Procedure or Rule 49(c) of the Federal Rules of
Criminal Procedure. It was generated by CM/ECF, the
automated docketing system used to maintain the civil
and criminal dockets of this District. If a minute order
or other document is enclosed, please refer to it for
additional information.
For scheduled events, motion practices, recent
opinions and other information, visit our web site at
www.ilnd.uscourts.gov.

10a
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
Edward A. Weinhaus,
Plaintiff,
v.
Natalie B.Cohen, Steven Cohen, Barry
Chernawsky, The State of Illinois,
Defendants.
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
plaintiff(s)
□
in
favor
of
defendant(s)
against
and
in the amount of $
which □
□

includes pre—judgment interest,
does not include pre—judgment
interest.

Post-judgment interest accrues on that amount
at the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).
□

[

in favor of defendant(s) and against
plaintiff(s)

Defendant(s) shall recover costs from plaintiff(s).
■

other: Motions to dismiss are granted.
Case is dismissed with prejudice.

11a
This action was (check one):
□

tried by a jury with Judge presiding, and
the jury has rendered a verdict.

□

tried by Judge without a jury and the
above decision was reached.
decided by Judge Rebecca R. Pallmeyer
on motions to dismiss.

Date: 9/14/2018
Thomas G. Bruton, Clerk of Court
Ena T. Ventura, Deputy Clerk

12a
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with
Fed. R. App. P. 32.1
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
September 23,2019
Before
JOEL M. FLAUM, Circuit Judge
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3185
EDWARD A. WEINHAUS,
Plaintiff-Appellant,
v.
NATALIE B. COHEN, et al.,
Defendants-Appellees.
Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 18-CV-02471
Rebecca R. Pallmeyer, Chief Judge.
ORDER
On July 16, 2019, this court affirmed the
judgment-of the district court and determined that the
appeal was frivolous. Weinhaus v. Cohen, 773 F. App'x
314, 317 (7th Cir. 2019). Because appellant Edward
Weinhaus's appeal satisfied the standard for

13a
sanctions under Rule 38 of the Federal Rules of
Appellate Procedure, we granted the appellees' motion
for sanctions and ordered the appellees to file with the
court a statement of the attorneys' fees and other
expenses reasonably incurred in defending the appeal.
They did so, and Weinhaus responded. We have
reviewed the parties' submissions, and we conclude
that, under a state-court order, Weinhaus has already
paid any fees that might be awarded under Rule 38. In
re Weinhaus, No. 12 D 008800 (Ill. Cir. Ct. Apr. 8, 2019)
(ordering appellant to pay $23,500 in appellee's
attorney's fees under 750 ILCS 5/508); see also Blixseth
v. Yellowstone Mountain Club, LLC, 854 F.3d 626, 631
(9th Cir. 2017); Sun-Tek Indus., Inc. v. Kennedy SkyLites, Inc., 865 F.2d 1254, 1255 (Fed. Cir. 1989). We
therefore award no additional fees under Rule 38.
Weinhaus represented to this court that he waives his
right to appeal the state court's April 8, 2019, fee
award. We have relied on that representation in
deciding not to award any further fees pursuant to Rule
38. See New Hampshire v. Maine, 532 U.S. 742, 750-51
(2001); Seymour v. Collins, 39 N.E.3d 961, 973 (111.
2015). We also direct the clerk of this court to forward a
copy of this order and our July 16 order to the State
Bar of California.

